                          U.S. COMMODITY FUTURES TRADING COMMISSION
                                               Three Lafayette Centre
                                    1155 21st Street, NW, Washington, DC 20581
                                            Telephone: (202) 418-5110
                                             Facsimile: (202) 418-5522


                                               November 15,2012
   Office of the
Inspector General



      Mr. Gary Gensler
      Chairman
      Commodity Futures Trading Commission
      Washington, D.C. 20581

      Dear Chairman Gensler:

         The Office of the Inspector General contracted with an independent public accounting firm to
      conduct an audit of the CFTC's financial statements for fiscal year 2012. I concur with the
      attached unqualified opinion of our independent public accounting firm. Should you have any
      questions concerning this audit please contact me.


                                                  Sincerely,




                                                  A. Roy Lavik
                                                  Inspector General
                                KPMG LLP
                                Suite 12000
                                1801 K Street, NW
                                Washington, DC 20006




                                         Independent Auditors’ Report


Chairman and Inspector General of the
U.S. Commodity Futures Trading Commission:

We have audited the accompanying balance sheets of the Commodity Futures Trading Commission
(CFTC) as of September 30, 2012 and 2011, and the related statements of net cost, changes in net
position, budgetary resources, and custodial activity (hereinafter referred to as “ financial statements” or
“basic financial statements”) for the years then ended. The objective of our audits was to express an
opinion on the fair presentation of these financial statements. In connection with our fiscal year 2012 audit,
we also considered the CFTC’s internal control over financial reporting and tested the CFTC’s compliance
with certain provisions of applicable laws, regulations and contracts that could have a direct and material
effect on these financial statements.

Summary
As stated in our Opinion on the Financial Statements, we concluded that the CFTC’s financial statements
as of and for the years ended September 30, 2012 and 2011, are presented fairly, in all material respects, in
conformity with U.S. generally accepted accounting principles.

As discussed in our Opinion on the Financial Statements, the CFTC changed its presentation for reporting
the statements of budgetary resources in fiscal year 2012 based on new reporting requirements under
Office of Management and Budget Circular No. A-136, Financial Reporting Requirements.

Our consideration of internal control over financial reporting was not designed to identify all deficiencies
in internal control over financial reporting that might be deficiencies, significant deficiencies, or material
weaknesses. We did not identify any deficiencies in internal control over financial reporting that we
consider to be material weaknesses as defined in the Internal Control Over Financial Reporting section of
this report.

The results of our tests of compliance with certain provisions of laws, regulations, and contracts disclosed
no instances of noncompliance that are required to be reported under Government Auditing Standards,
issued by the Comptroller General of the United States, and Office of Management and Budget (OMB)
Bulletin No. 07-04, Audit Requirements for Federal Financial Statements, as amended.

The Government Accountability Office (GAO) is conducting a review on a matter that may represent a
potential violation of the Anti-Deficiency Act. This matter is currently under review by the GAO. A final
determination has not yet been made and therefore the outcome of this matter is not presently known.

The following sections discuss our opinion on the CFTC’s financial statements; our consideration of the
CFTC’s internal control over financial reporting; our tests of the CFTC’s compliance with certain
provisions of applicable laws, regulations, and contracts; and management’s and our responsibilities.




                                KPMG LLP is a Delaware limited liability partnership,
                                the U.S. member firm of KPMG International Cooperative
                                (“KPMG International”), a Swiss entity.
Page 2 of 4




Opinion on the Financial Statements
We have audited the accompanying balance sheets of the Commodity Futures Trading Commission as of
September 30, 2012 and 2011, and the related statements of net cost, changes in net position, budgetary
resources, and custodial activity for the years then ended.

In our opinion, the financial statements referred to above present fairly, in all material respects, the
financial position of the Commodity Futures Trading Commission as of September 30, 2012 and 2011, and
its net costs, changes in net position, budgetary resources, and custodial activity for the years then ended,
in conformity with U.S. generally accepted accounting principles.

As discussed in Note 1 to the CFTC’s financial statements, the CFTC changed its presentation for
reporting the statements of budgetary resources in fiscal year 2012, based on new reporting requirements
under OMB Circular No. A-136, Financial Reporting Requirements. As a result, the CFTC’s statement of
budgetary resources for fiscal year 2011 has been adjusted to conform to the current year presentation.

U.S. generally accepted accounting principles require that the information in the Management’s Discussion
and Analysis section be presented to supplement the basic financial statements. Such information, although
not a part of the basic financial statements, is required by the Federal Accounting Standards Advisory
Board who considers it to be an essential part of financial reporting for placing the basic financial
statements in an appropriate operational, economic, or historical context. We have applied certain limited
procedures to the required supplementary information in accordance with auditing standards generally
accepted in the United States of America, which consisted of inquiries of management about the methods
of preparing the information and comparing the information for consistency with management’s responses
to our inquiries, the basic financial statements, and other knowledge we obtained during our audits of the
basic financial statements. We do not express an opinion or provide any assurance on the information
because the limited procedures do not provide us with sufficient evidence to express an opinion or provide
any assurance.

The information in the Other Accompanying Information section of the CFTC’s Agency Financial Report
Fiscal Year 2012 is presented for the purposes of additional analysis and is not a required part of the
financial statements. Such information has not been subjected to the auditing procedures applied in the
audits of the basic financial statements, and accordingly, we do not express an opinion or provide any
assurance on them.

Internal Control Over Financial Reporting
A deficiency in internal control exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions, to prevent, or
detect and correct misstatements on a timely basis. A material weakness is a deficiency, or a combination
of deficiencies, in internal control such that there is a reasonable possibility that a material misstatement of
the entity’s financial statements will not be prevented, or detected and corrected on a timely basis.
Page 3 of 4




Our consideration of internal control over financial reporting was for the limited purpose described in the
Responsibilities section of this report and was not designed to identify all deficiencies in internal control
over financial reporting that might be deficiencies, significant deficiencies, or material weaknesses. In our
fiscal year 2012 audit, we did not identify any deficiencies in internal control over financial reporting that
we consider to be material weaknesses, as defined above.
Compliance and Other Matters
The results of our other tests of compliance as described in the Responsibilities section of this report,
exclusive of those referred to in the Federal Financial Management Improvement Act of 1996 (FFMIA),
disclosed no instances of noncompliance that are required to be reported herein under Government
Auditing Standards or OMB Bulletin No. 07-04.
The results of our tests of FFMIA disclosed no instances in which the CFTC’s financial management
systems did not substantially comply with the (1) Federal financial management systems requirements, (2)
applicable Federal accounting standards, and (3) the United States Government Standard General Ledger at
the transaction level.
The Government Accountability Office (GAO) is conducting a review on a matter that may represent a
potential violation of the Anti-Deficiency Act. This matter is currently under review by the GAO. A final
determination has not yet been made and therefore the outcome of this matter is not presently known.
                                                *******

Responsibilities
Management’s Responsibilities. Management is responsible for the financial statements; establishing and
maintaining effective internal control over financial reporting; and complying with laws, regulations, and
contracts applicable to CFTC.
Auditors’ Responsibilities. Our responsibility is to express an opinion on the fiscal year 2012 and 2011
financial statements of CFTC based on our audits. We conducted our audits in accordance with auditing
standards generally accepted in the United States of America; the standards applicable to financial audits
contained in Government Auditing Standards, issued by the Comptroller General of the United States; and
OMB Bulletin No. 07-04. Those standards and OMB Bulletin No. 07-04 require that we plan and perform
the audits to obtain reasonable assurance about whether the financial statements are free of material
misstatement. An audit includes consideration of internal control over financial reporting as a basis for
designing audit procedures that are appropriate in the circumstances, but not for the purpose of expressing
an opinion on the effectiveness of CFTC’s internal control over financial reporting. Accordingly, we
express no such opinion.
An audit also includes:

•     Examining, on a test basis, evidence supporting the amounts and disclosures in the             financial
      statements;
•     Assessing the accounting principles used and significant estimates made by management; and
•     Evaluating the overall financial statement presentation.
We believe that our audits provide a reasonable basis for our opinion.
Page 4 of 4




In planning and performing our fiscal year 2012 audit, we considered CFTC’s internal control over
financial reporting by obtaining an understanding of CFTC’s internal control, determining whether internal
controls had been placed in operation, assessing control risk, and performing tests of controls as a basis for
designing our auditing procedures for the purpose of expressing our opinion on the financial statements,
but not for the purpose of expressing an opinion on the effectiveness of CFTC’s internal control over
financial reporting. Accordingly, we do not express an opinion on the effectiveness of CFTC’s internal
control over financial reporting. We did not test all internal controls relevant to operating objectives as
broadly defined by the Federal Managers’ Financial Integrity Act of 1982.

As part of obtaining reasonable assurance about whether CFTC’s fiscal year 2012 financial statements are
free of material misstatement, we performed tests of CFTC’s compliance with certain provisions of laws,
regulations, and contracts, noncompliance with which could have a direct and material effect on the
determination of the financial statement amounts, and certain provisions of other laws and regulations
specified in OMB Bulletin No. 07-04, including the provisions referred to in Section 803(a) of FFMIA.
We limited our tests of compliance to the provisions described in the preceding sentence, and we did not
test compliance with all laws, regulations, and contracts, applicable to CFTC. However, providing an
opinion on compliance with laws, regulations, and contracts, was not an objective of our audit and,
accordingly, we do not express such an opinion.

                                   ______________________________

This report is intended solely for the information and use of CFTC’s management, CFTC’s Office of
Inspector General, OMB, the U.S. Government Accountability Office, and the U.S. Congress and is not
intended to be and should not be used by anyone other than these specified parties.




November 15, 2012
A Message from the Chief Financial Officer
The public accounting firm, KPMG LLP, on behalf of the Inspector General, reported that the
Commission’s financial statements were presented fairly, in all material respects, and were in
conformity with U.S. generally accepted accounting principles. For the sixth consecutive year the
Commission had no material weaknesses, and was compliant with laws and regulations.

The CFTC leverages a financial management systems platform operated by the U.S. Department of
Transportation’s (DOT) Enterprise Service Center, an Office of Management and Budget (OMB)
designated financial management service provider. As a consequence, the CFTC is able to
accumulate, analyze, and present reliable financial information, or provide reliable, timely
information for managing current operations and timely reporting of financial information to
central agencies. Furthermore, our system is in substantial compliance with the Federal Financial
Management Improvement Act (FFMIA) of 1996 (although CFTC is not required to comply with
FFMIA, it has elected to do so).




                                        Mark Carney
                                        November 15, 2012
                                        Chief Financial Officer




                                                                                    1|CFTC

Management’s   Financial       Other        Appendix
Discussion &   Section         Accompanying
Analysis                       Information
                                                                 FY 2012 Agency Financial Report
Limitations of Financial Statements
Management has prepared the accompanying financial statements to report the financial position
and operational results for the CFTC for FY 2012 and FY 2011 pursuant to the requirements of
Title 31 of the U.S. Code, section 3515 (b).

While these statements have been prepared from the books and records of the Commission in
accordance with GAAP for Federal entities and the formats prescribed by OMB Circular A-136,
Financial Reporting Requirements, these statements are in addition to the financial reports used
to monitor and control budgetary resources, which are prepared from the same books and records.

The statements should be read with the understanding that they represent a component of the U.S.
government, a sovereign entity. One implication of this is that the liabilities presented herein
cannot be liquidated without the enactment of appropriations, and ongoing operations are subject
to the enactment of future appropriations.




                                                                                   2|CFTC

Management’s   Financial       Other        Appendix
Discussion &   Section         Accompanying
Analysis                       Information
Principal Financial Statements
Commodity Futures Trading Commission
BALANCE SHEETS
As of September 30, 2012 and 2011
                                                                                  2012              2011
Assets
Intragovernmental:
1             Fund Balance With Treasury (Note 2)                            $    82,557,690   $    81,785,717
2             Investments (Note 3)                                                77,135,901                 -
5             Prepayments (Note 1J)                                                 185,766            90,107
6             Total Intragovernmental                                            159,879,357        81,875,824


Custodial Receivables, Net (Note 4)                                                4,140,347         2,574,173
Accounts Receivable (Note 4)                                                          20,976            59,226
General Property, Plant and Equipment, Net (Note 5)                               53,410,435        42,346,895
Deferred Costs (Note 6)                                                            1,234,223         6,254,873
Prepayments (Note 1J)                                                              1,617,731         1,019,519
Total Assets                                                                 $   220,303,069   $   134,130,510


Liabilities
Intragovernmental:
17A.       FECA Liabilities                                                  $      127,661    $       91,175
17B.          Accounts Payable                                                      523,356           693,987
20            Total Intragovernmental                                               651,017           785,162


Accounts Payable                                                                   6,694,416         6,398,362
Accrued Funded Payroll                                                             7,837,836         7,346,675
Annual Leave                                                                       8,639,840         8,117,663
Actuarial FECA Liabilities (Note 9)                                                  636,582           437,337
Custodial Liabilities                                                              4,140,347         2,574,173
Deposit Fund Liabilities                                                             77,098            57,127
Deferred Lease Liabilities (Note 10)                                              24,808,042        21,974,782
Other                                                                                19,050            19,649
Contingent Liabilities (Note 11)                                                           -                 -
Total Liabilities                                                            $    53,504,228   $    47,710,930


Net Position
32.           Cumulative Results of Operations - Earmarked                   $    99,996,749   $    23,755,000
33.           Cumulative Results of Operations - Other                            20,452,619        17,998,424
31.       Unexpended Appropriations                                               46,349,473        44,666,156
Total Net Position                                                               166,798,841        86,419,580

Total Liabilities and Net Position                                           $   220,303,069   $   134,130,510


The accompanying notes are an integral part of these financial statements.




                                                                                                    3|CFTC

Management’s            Financial             Other        Appendix
Discussion &            Section               Accompanying
Analysis                                      Information
                                                                                 FY 2012 Agency Financial Report

Commodity Futures Trading Commission
STATEMENTS OF NET COST
For the Years Ended September 30, 2012 and 2011
                                                                                 2012                     2011
Net Cost by Goal (Note 15)
Goal 1: Protect the public and market participants by ensuring
market integrity; promoting transparency, competition, and
fairness; and lowering risk in the system.


Gross C osts                                                                 $     59,233,491       $       48,413,277
Less: Earned Rev enue                                                                 (64,907)                 (22,890)

Net Cost of Operations- Goal 1                                               $     59,168,584       $       48,390,387


Goal 2: Protect the public and market participants by ensuring the
financial integrity of derivatives transactions, mitigation of systemic
risk, and the fitness and soundness of intermediaries and other
registrants.


Gross C osts                                                                 $     54,707,413       $       43,722,068
Less: Earned Rev enue                                                                    (59,948)                (20,672)

Net Cost of Operations- Goal 2                                               $     54,647,465       $       43,701,396


Goal 3: Protect the public and market participants through a robust
enforcement program


Gross C osts                                                                 $     61,039,770       $       61,173,365
Less: Earned Rev enue                                                                    (66,887)                (28,923)

Net Cost of Operations- Goal 3                                               $     60,972,883       $       61,144,442


Goal 4: Enhance integrity of US markets by engaging in cross-
border cooperation, promoting strong international regulatory
standards, and encouraging ongoing convergence of laws and
regulation worldwide.


Gross C osts                                                                 $      6,955,212       $        8,444,176
Less: Earned Rev enue                                                                     (7,621)                 (3,992)

Net Cost of Operations- Goal 4                                               $      6,947,591       $        8,440,184



Goal 5: Promote Commission excellence through executive
direction and leadership, organizational and individual
performance management, and effective management of resources


Gross C osts                                                                 $     25,682,379       $       25,895,474
Less: Earned Rev enue                                                                 (28,141)                 (12,243)

Net Cost of Operations- Goal 5                                               $     25,654,238       $       25,883,231

Grand T otal

Gross C osts                                                                 $    207,618,265       $      187,648,360
Less: Earned Rev enue                                                                   (227,504)                (88,720)

T otal Net Cost of Operations                                                $    207,390,761       $      187,559,640


The accompanying notes are an integral part of these financial statements.




                                                                                                        4|CFTC

Management’s         Financial              Other        Appendix
Discussion &         Section                Accompanying
Analysis                                    Information
Commodity Futures Trading Commission
STATEMENTS OF CHANGES IN NET POSITION
For the Years Ended September 30, 2012 and 2011



                                                                                                           2012
                                                                             Earmarked Funds         All Other Funds          Consolidated Total

Cumulative Results of Operations:

Beginning Balances, October 1                                           $          23,755,000    $          17,998,424    $           41,753,424
    Appropriations Used                                                                     -              202,899,168               202,899,168
Other Financing Sources:
   Transfers-In Without Reimbursement (Note 17)                                    76,708,620                        -                76,708,620
   Imputed Financing Sources                                                                -                6,478,917                 6,478,917
   Total Financing Sources                                                         76,708,620                6,478,917                83,187,537

Net Cost of Operations                                                               (466,871)            (206,923,890)             (207,390,761)
Net Change                                                                         76,241,749                2,454,195                78,695,944

Total Cumulative Results of Operations, September 30                    $          99,996,749    $          20,452,619    $          120,449,368

Unexpended Appropriations:

Beginning Balances, October 1                                           $                   -    $          44,666,156    $           44,666,156

Budgetary Financing Sources:
   Appropriations Received                                                                  -              205,294,000               205,294,000
   Less: Other Adjustments (Rescissions, etc.)                                              -                 (711,515)                 (711,515)
   Appropriations Used                                                                      -             (202,899,168)             (202,899,168)

      Total Budgetary Financing Sources                                                     -                1,683,317                 1,683,317

Total Unexpended Appropriations, September 30                           $                   -    $          46,349,473    $           46,349,473



Net Position                                                            $          99,996,749    $          66,802,092    $          166,798,841


The accompanying notes are an integral part of these financial statements.




                                                                                                                                   5|CFTC

Management’s              Financial                 Other        Appendix
Discussion &              Section                   Accompanying
Analysis                                            Information
                                                                                                       FY 2012 Agency Financial Report
Commodity Futures Trading Commission
STATEMENTS OF CHANGES IN NET POSITION (Continued)
For the Years Ended September 30, 2012 and 2011



                                                                                                          2011
                                                                             Earmarked Funds        All Other Funds          Consolidated Total

Cumulative Results of Operations:

Beginning Balances, October 1                                           $                   -   $          11,455,579    $           11,455,579
    Appropriations Used                                                                     -             187,513,010               187,513,010
Other Financing Sources:
   Transfers-In/Out Without Reimbursement (+/-)                                    23,755,000                                        23,755,000
   Imputed Financing Sources                                                                -               6,589,475                 6,589,475
   Total Financing Sources                                                         23,755,000               6,589,475                30,344,475

Net Cost of Operations                                                                      -            (187,559,640)             (187,559,640)
Net Change                                                                         23,755,000               6,542,845                30,297,845

Total Cumulative Results of Operations, September 30                    $          23,755,000   $          17,998,424    $           41,753,424

Unexpended Appropriations:

Beginning Balances, October 1                                           $                   -   $          30,449,492    $           30,449,492

Budgetary Financing Sources:
   Appropriations Received                                                                  -             202,675,000               202,675,000
   Less: Other Adjustments (Rescissions, etc.)                                              -                (945,326)                 (945,326)
   Appropriations Used                                                                      -            (187,513,010)             (187,513,010)
     Total Budgetary Financing Sources                                                      -              14,216,664                14,216,664

Total Unexpended Appropriations, September 30                           $                   -   $          44,666,156    $           44,666,156



Net Position                                                            $          23,755,000   $          62,664,580    $           86,419,580

The accompanying notes are an integral part of these financial statements.




                                                                                                                                  6|CFTC

Management’s              Financial                 Other        Appendix
Discussion &              Section                   Accompanying
Analysis                                            Information
Commodity Futures Trading Commission
STATEMENTS OF BUDGETARY RESOURCES
For the Years Ended September 30, 2012 and 2011

                                                                                         2012               2011


BUDGETARY RESOURCES
Unobligated Balance, October 1                                                    $    37,356,190     $      2,944,832
Recoveries of Prior Year Unpaid Obligations                                             6,327,442            1,448,576
Other Changes in Unobligated Balance                                                      (711,515)           (539,976)
  Unobligated Balance From Prior Year Authority                                        42,972,117            3,853,432

Appropriations                                                                        205,294,000          202,269,650
Spending Authority from Offsetting Collections                                         76,925,590           24,083,639

Total Budgetary Resources                                                         $   325,191,707     $    230,206,721


STATUS OF BUDGETARY RESOURCES
Obligations incurred (Note 13)                                                    $   215,023,293     $    192,850,531
Unobligated Balance, end of period
               Apportioned                                                             18,982,888            9,880,055
               Unapportioned                                                           91,185,526           27,476,135
Total Unobligated Balance, end of period                                              110,168,414           37,356,190

Total Status of Budgetary Resources                                               $   325,191,707     $    230,206,721

CHANGE IN OBLIGATED BALANCES
Unpaid Obligations, October 1 (gross)                                             $    44,462,925     $     41,365,242
Uncollected Customer Payments from Federal Sources, October 1                              (50,021)            (10,403)
               Obligated balance October 1 (net)                                       44,412,904           41,354,839
Obligations Incurred                                                                  215,023,293          192,850,530
Outlays (gross)                                                                       (203,702,085)       (188,304,270)
Change in uncollected customer payments from Federal sources                                41,408             (39,619)
Recoveries of Prior-Year Unpaid Obligations                                             (6,327,442)         (1,448,576)
Obligated balance, September 30
                Unpaid Obligations, end of year (gross)                                49,456,691           44,462,925
                Uncollected Customer Payments from Federal Sources, end of year            (8,613)             (50,021)
Net Obligated Balance, September 30                                               $    49,448,078     $     44,412,904

NET BUDGET AUTHORITY AND OUTLAYS
Budget Authority, Gross                                                           $   282,219,590     $    226,353,289
Actual offsetting collections                                                         (76,966,998)         (24,044,020)
Change in uncollected customer payments from Federal Sources                               41,408              (39,619)
Budget Authority, Net                                                             $   205,294,000     $    202,269,650

Outlays (gross)                                                                   $   203,702,085     $    188,304,270
Actual offsetting Collections                                                         (76,966,998)         (24,044,020)
Distributed Offsetting Receipts                                                             (3,210)             (2,219)
NET OUTLAYS                                                                       $   126,731,877     $    164,258,031


The accompanying notes are an integral part of these financial statements.



                                                                                                          7|CFTC

Management’s            Financial                Other        Appendix
Discussion &            Section                  Accompanying
Analysis                                         Information
                                                                                  FY 2012 Agency Financial Report
Commodity Futures Trading Commission
STATEMENTS OF CUSTODIAL ACTIVITY
For the Years Ended September 30, 2012 and 2011

                                                                                   2012              2011


Revenue Activity
Sources of Cash Collections:
    Registration and Filing Fees                                             $     1,780,883     $    2,059,411
     Fines, Penalties, and Forfeitures                                           259,687,332         11,433,774
     General Proprietary Receipts                                                      3,210              2,219

Total Cash Collections                                                           261,471,425         13,495,404
Change in Custodial Receivables                                                    1,566,174           254,239
Total Custodial Revenue                                                      $   263,037,599     $   13,749,643

Disposition of Collections
     Amounts Transferred to:
           Department of the Treasury                                            (184,762,805)       (7,740,404)
           Customer Protection Fund                                               (76,708,620)       (5,755,000)
     Change in Custodial Liabilities                                               (1,566,174)         (254,239)
NET CUSTODIAL ACTIVITY                                                       $              -    $            -


The accompanying notes are an integral part of these financial statements.




                                                                                                     8|CFTC

Management’s        Financial            Other        Appendix
Discussion &        Section              Accompanying
Analysis                                 Information
Notes to the Financial Statements
As of and For the Fiscal Years Ended
September 30, 2012 and 2011


Note 1      Summary of Significant Accounting Policies

A. Reporting Entity

The Commodity Futures Trading Commission (CFTC) is an independent agency of the executive
branch of the Federal Government. Congress created the CFTC in 1974 under the authorization of
the Commodity Exchange Act (CEA) with the mandate to regulate commodity futures and option
markets in the United States. The agency’s mandate was renewed and expanded under the Futures
Trading Acts of 1978, 1982, and 1986; under the Futures Trading Practices Act of 1992; under the
CFTC Reauthorization Act of 1995; under the Commodity Futures Modernization Act of 2000; and
under the Dodd-Frank Act of 2010. Congress passed the Food, Conservation, and Energy Act of
2008 (Farm Bill), which reauthorized the Commission through FY 2013. Since its inception, the
CFTC has continuously operated through authorized appropriations.

The CFTC is responsible for ensuring the economic utility of futures markets by encouraging their
competitiveness and efficiency, ensuring their integrity, and protecting market participants against
manipulation, abusive trade practices, and fraud.

On July 21, 2010, the “Dodd-Frank Wall Street Reform and Consumer Protection Act” (the Dodd-
Frank Act, or the Act) was signed into law, significantly expanding the powers and responsibilities
of the CFTC. According to Section 748 of the Act, there is established in the Treasury of the United
States a revolving fund known as the “Commodity Futures Trading Commission Customer
Protection Fund” (the Fund). The Fund shall be available to the Commission, without further
appropriation or fiscal year limitation, for a) the payment of awards to whistleblowers; and b) the
funding of customer education initiatives designed to help customers protect themselves against
fraud or other violations of this Act or the rules and regulations thereunder.

B. Basis of Presentation

The financial statements have been prepared to report the financial position and results of
operations for the CFTC, as required by the Chief Financial Officers’ Act of 1990 along with the
Accountability of Tax Dollars Act of 2002, and the Government Management Reform Act of 1994.
They are presented in accordance with the form and content requirements contained in Office of
Management and Budget (OMB) Circular No. A-136, “Financial Reporting Requirements,” as
amended.

The principal financial statements have been prepared in all material respects from the agency’s
books and records in conformity with U.S. generally accepted accounting principles (GAAP), as
prescribed for the federal government by the Federal Accounting Standards Advisory Board
                                                                                       9|CFTC
Management’s    Financial      Other           Appendix
Discussion &    Section        Accompanying
Analysis                       Information
                                                                      FY 2012 Agency Financial Report
(FASAB). The application and methods for applying these principles are appropriate for
presenting fairly the entity’s assets, liabilities, net cost of operations, changes in net position, and
budgetary resources.

The financial statements report on the CFTC’s financial position, net cost of operations, changes in
net position, budgetary resources, and custodial activities. The books and records of the agency
served as the source of information for preparing the financial statements in the prescribed
formats. All agency financial statements and reports used to monitor and control budgetary
resources are prepared from the same books and records. The statements should be read with the
understanding that they are for a component of the U.S. Government, a sovereign entity.

The Balance Sheets present the financial position of the agency. The Statements of Net Cost
present the agency’s operating results; the Statements of Changes in Net Position display the
changes in the agency’s equity accounts. The Statements of Budgetary Resources present the
sources, status, and uses of the agency’s resources and follow the rules for the Budget of the United
States Government. The Statements of Custodial Activity present the sources and disposition of
collections for which the CFTC is the fiscal agent, or custodian, for the Treasury General Fund
Miscellaneous Receipt accounts.

Throughout these financial statements, assets, liabilities, revenues and costs have been classified
according to the type of entity with whom the transactions were made. Intragovernmental assets
and liabilities are those from or to other federal entities. Intragovernmental earned revenues are
collections or accruals of revenue from other federal entities, and intragovernmental costs are
payments or accruals to other federal entities. The CFTC does not transact business among its own
operating units, and therefore, intra-entity eliminations were not needed.

C. Budgetary Resources and Status

The CFTC is funded through congressionally approved appropriations. The CFTC is responsible
for administering the salaries and expenses of the agency through the execution of these
appropriations.

Congress annually enacts appropriations that provide the CFTC with the authority to obligate
funds within the respective fiscal year for necessary expenses to carry out mandated program
activities. In addition, Congress enacted a permanent indefinite appropriation that is available
until expended. All appropriations are subject to quarterly apportionment as well as Congressional
restrictions.

The CFTC’s budgetary resources for FY 2012 consist of:

       Unobligated balances of resources brought forward from the prior year,
       Recoveries of obligations made in prior years, and
       New resources in the form of appropriations and spending authority from offsetting
        collections.
                                                                                         10 | C F T C
Management’s     Financial      Other            Appendix
Discussion &     Section        Accompanying
Analysis                        Information
Unobligated balances associated with resources expiring at the end of the fiscal year remain
available for five years after expiration only for upward adjustments of prior year obligations, after
which they are canceled and may not be used. All unused monies related to canceled
appropriations are returned to Treasury and the canceled authority is reported as a line item on
the Statements of Budgetary Resources and the Statements of Changes in Net Position.

D. Entity and Non-Entity Assets

Assets consist of entity and non-entity assets. Entity assets are those assets that the CFTC has
authority to use for its operations. Non-entity assets are those held by the CFTC that are not
available for use in its operations. Non-entity assets held by the CFTC include deposit fund
balances, custodial fines, interest, penalties, and administrative fees receivable.

E. Fund Balance with Treasury

Fund Balance with Treasury is the aggregate amount of the CFTC’s funds with Treasury in
expenditure, receipt, revolving, and deposit fund accounts. Appropriated funds recorded in
expenditure accounts are available to pay current liabilities and finance authorized purchases.
Revolving fund custodial collections recorded in the deposit fund and miscellaneous receipts
accounts of the Treasury are not available for agency use. At fiscal year-end, receipt account
balances are returned to Treasury or transferred to the Customer Protection Fund.

The CFTC does not maintain bank accounts of its own, has no disbursing authority, and does not
maintain cash held outside of Treasury. Treasury disburses funds for the agency on demand.
Spending authority from offsetting collections is recorded in the agency’s expenditure account and
is available for agency use subject to certain limitations.

F. Investments

The CFTC has the authority to invest amounts deposited in the Customer Protection Fund in short-
term market-based Treasury securities. Market-based Treasury securities are debt securities that
the U.S. Treasury issues to Federal entities without statutorily determined interest rates. Although
the securities are not marketable, the terms (prices and interest rates) mirror the terms of
marketable Treasury securities.

Interest earned on the investments is a component of the Fund and is available to be used for
expenses of the Customer Protection Fund. Additional details regarding Customer Protection Fund
investments are provided in Note 3.

G. Accounts Receivable

Accounts receivable consists of amounts owed by other federal agencies and the public to the CFTC
and is valued net of an allowance for uncollectible amounts. The allowance is based on past

                                                                                       11 | C F T C
Management’s     Financial     Other            Appendix
Discussion &     Section       Accompanying
Analysis                       Information
                                                                     FY 2012 Agency Financial Report
experience in the collection of receivables and analysis of the outstanding balances. Accounts
receivable arise from reimbursable operations, earned refunds or the Civil Monetary Sanctions
program.

H. General Property, Plant and Equipment, Net

Furniture, fixtures, equipment, information technology hardware and software, and leasehold
improvements are capitalized and depreciated or amortized over their useful lives.

The CFTC capitalizes assets annually if they have useful lives of at least two years and an individual
value of $25,000 or more. Bulk or aggregate purchases are capitalized when the individual useful
lives are at least two years and the purchase is a value of $25,000 or more. Property, plant and
equipment that do not meet the capitalization criteria are expensed when acquired. Depreciation
for equipment and amortization for software is computed on a straight-line basis using a 5-year
life. Leasehold improvements are amortized over the remaining life of the lease. The Commission’s
assets are valued net of accumulated depreciation or amortization.

I. Deferred Costs

The Commission has received lease incentives, Tenant Improvement Allowances (TIA), from the
landlords on its operating leases. These allowances can be used for construction, asset purchases,
or rent expense, and are classified as deferred costs on the balance sheets. These costs are
reallocated either to leasehold improvements, equipment, or if used for rent, expensed. The TIA is
also amortized with the deferred lease liability over the life of the lease.

J. Prepayments

Payments to federal and non-federal sources in advance of the receipt of goods and services are
recorded as prepayments and recognized as expenses when the related goods and services are
received. Intragovernmental prepayments reported on the Balance Sheet were made primarily to
the Department of Transportation (DOT) for transit subsidy services. Prepayments to the public
were primarily for software maintenance and subscription services.

K. Liabilities

The CFTC’s liabilities consist of actual and estimated amounts that are likely to be paid as a result
of transactions covered by budgetary resources for which Congress has appropriated funds or
funding, or are otherwise available from reimbursable transactions to pay amounts due.

Liabilities include those covered by budgetary resources in existing legislation and those not yet
covered by budgetary resources. The CFTC liabilities not covered by budgetary resources include:

       Intragovernmental Federal Employees Compensation Act (FECA) liabilities,
       Annual leave benefits which will be funded by annual appropriations as leave is taken,
       Actuarial FECA liabilities,
                                                                                       12 | C F T C
Management’s     Financial     Other            Appendix
Discussion &     Section       Accompanying
Analysis                       Information
       Custodial liabilities for custodial revenue transferred to Treasury at fiscal yearend,
       Contingent liabilities,
       Deposit funds,
       Deferred lease liabilities, and
       Advances received for reimbursable services yet to be provided.

L. Accounts Payable

Accounts payable consists primarily of contracts for goods or services, such as operating leases,
leasehold improvements, software development, information technology, telecommunications, and
consulting and support services.

M. Accrued Payroll and Benefits and Annual Leave Liability

The accrued payroll liability represents amounts for salaries and benefits owed for the time since
the payroll was last paid through the end of the reporting period. The annual leave liability is the
amount owed employees for unused annual leave as of the end of the reporting period. At the end
of each quarter, the balance in the accrued annual leave account is adjusted to reflect current
balances and pay rates. Sick leave and other types of non-vested leave are expensed as taken.

The agency’s employees participate in the Civil Service Retirement System (CSRS) or the Federal
Employees’ Retirement System (FERS). On January 1, 1987, FERS went into effect pursuant to
Public Law 99-335. Most employees hired after December 31, 1983, are automatically covered by
FERS and Social Security. Employees hired prior to January 1, 1984, could elect to either join
FERS and Social Security or remain in CSRS.

For employees under FERS, the CFTC contributes an amount equal to one percent of the
employee’s basic pay to the tax deferred Thrift Savings Plan and matches employee contributions
up to an additional four percent of pay. FERS and CSRS employees can contribute a portion of
their gross earnings to the plan up to IRS limits; however, CSRS employees receive no matching
agency contribution.

N. Leases

The CFTC does not have any capital lease liabilities. The operating leases consist of commercial
property for the CFTC’s headquarters and regional offices. Lease expenses are recognized on a
straight-line basis.

O. Deposit Funds

Deposit funds are expenditure accounts used to record monies that do not belong to the Federal
government. They are held awaiting distribution based on a legal determination or investigation.
The CFTC Deposit Fund is used to collect and later distribute collections of monetary awards to the
appropriate victims as restitution. The cash collections recorded in this fund are offset by a Deposit
                                                                                        13 | C F T C
Management’s     Financial        Other          Appendix
Discussion &     Section          Accompanying
Analysis                          Information
                                                                  FY 2012 Agency Financial Report
Fund liability. Activities in this fund are not fiduciary in nature because they are not legally
enforceable against the government.

P. Net Position

Net position consists of unexpended appropriations and cumulative results of operations.
Unexpended appropriations are appropriations that have not yet been used to acquire goods and
services or provide benefits. Appropriations are considered expended, or used, when goods and
services have been acquired by the CFTC or benefits have been provided using the appropriation
authority, regardless of whether monies have been paid or payables for the goods, services, or
benefits have been established.

Cumulative results of operations represent the excess of budgetary or other financing sources over
expenses since inception. Cumulative results of operations are derived from the net effect of
capitalized assets, expenses, exchange revenue, and unfunded liabilities.

Q. Revenues

The CFTC receives reimbursement and earns revenue for the following activities:

       Reimbursement for travel, subsistence, and related expenses from non-federal sources for
        attendance at meetings or similar functions that an employee has been authorized to
        attend in an official capacity on behalf of the Commission.
       Reimbursement for Intergovernmental Personnel Act Mobility Program assignments from
        state and local governments, institutions of higher education, and other eligible
        organizations for basic pay, supplemental pay, fringe benefits, and travel and relocation
        expenses.
       Reimbursement from non-federal sources for registration fees to cover the cost of
        expenses related to the CFTC's annual International Regulators Conference.

R. Net Cost of Operations

Net cost of operations is the difference between the CFTC’s expenses and its earned revenue. The
presentation of program results by strategic goals is based on the CFTC’s current Strategic Plan
established pursuant to the Government Performance and Results Act of 1993. The Commission
implemented a new strategic plan in FY 2011. (Note 15)

The mission statement of the CFTC is to protect market users and the public from fraud,
manipulation, and abusive practices related to the sale of commodity and financial futures and
options, and to foster open, competitive, and financially sound futures and option markets. The
mission is accomplished through five strategic goals, each focusing on a vital area of regulatory
responsibility:




                                                                                    14 | C F T C
Management’s    Financial     Other           Appendix
Discussion &    Section       Accompanying
Analysis                      Information
       Protect the public and market participants by ensuring market integrity; promoting
        transparency, competition, and fairness; and lowering risk in the system,
       Protect the public and market participants by ensuring the financial integrity of derivatives
        transactions, mitigation of systemic risk, and the fitness and soundness of intermediaries
        and other registrants,
       Protect the public and market participants through a robust enforcement program,
       Enhance integrity of U.S. markets by engaging in cross-border cooperation, promoting
        strong international regulatory standards, and encouraging ongoing convergence of laws
        and regulation worldwide, and
       Promote Commission excellence through executive direction and leadership,
        organizational and individual performance management, and effective management of
        resources.

S. Custodial Activity

The CFTC collects penalties and fines levied against firms for violation of laws as described in the
Commodity Exchange Act as codified at 7 U.S.C. § 1, et seq, and the Commodities Futures
Modernization Act of 2000, Appendix E of P.L. 106-554, 114 Stat. 2763. Unpaid fines, penalties
and accrued interest are reported as custodial receivables, with an associated custodial liability.
The receivables and the liability are reduced by amounts determined to be uncollectible. Revenues
earned and the losses from bad debts are reported to Treasury.

Collections made by the CFTC during the year are deposited and reported into designated Treasury
miscellaneous receipt accounts for:

       Registration and filing fees,
       Fines, penalties and forfeitures, and
       General proprietary receipts.

At fiscal year-end, custodial collections made by the CFTC are either returned to Treasury or when
determined eligible, transferred to the Customer Protection Fund. The CFTC does not retain any
amount for custodial activities including reimbursement of the cost of collection.

T. Use of Management Estimates

The preparation of the accompanying financial statements in accordance with accounting
principles generally accepted in the United States of America requires management to make
certain estimates and assumptions that directly affect the results of reported assets, liabilities,
revenues, and expenses. Actual results could differ from these estimates.




                                                                                      15 | C F T C
Management’s     Financial      Other           Appendix
Discussion &     Section        Accompanying
Analysis                        Information
                                                                    FY 2012 Agency Financial Report
U. Reconciliation of Net Obligations and Net Cost of Operations

In accordance with OMB Circular No. A-136, the Commission reconciles its change in budgetary
obligations with its net cost of operations.

V. Earmarked Funds

The Commission’s Customer Protection Fund (CPF) is earmarked to operate a whistleblower
program and support customer education initiatives. See Note 1.A. for a description of the purpose
of the CPF and its authority to use revenues and other financing sources. Deposits into the CPF are
credited from monetary sanctions collected by the Commission in a covered judicial or
administrative action where the full judgment is in excess of $1,000,000 and the collection is not
otherwise distributed to victims of a violation of the Dodd-Frank Act or the underlying rules and
regulations, unless the balance of the CPF at the time the monetary judgment is collected, exceeds
$100 million. No new legislation was enacted as of September 30, 2012 that significantly changed
the purpose of the earmarked fund or redirected a material portion of the accumulated balance.

W. Reclassifications

In FY 2012, the presentation of the Statements of Budgetary Resources was changed in accordance
with OMB Circular A-136. As such, activity and balances reported on the FY 2011 Statement of
Budgetary Resources have been reclassified to conform to the presentation in the current
year. Certain other prior year amounts have also been reclassified to conform to the current year
presentation.


Note 2       Fund Balance with Treasury

A. Reconciliation to Treasury
There are no differences between the fund balances reflected in the CFTC Balance Sheets and the
balances in the Treasury accounts.

B. Fund Balance with Treasury
Fund Balance with Treasury consists of entity assets such as appropriations, reimbursements for
services rendered, and collections of fines and penalties. Obligation of these funds is controlled by
quarterly apportionments made by OMB. Work performed under reimbursable agreements is
initially financed by the annual appropriation and is subsequently reimbursed. Collections of fines
and penalties are distributed to harmed investors, returned to Treasury, or when eligible,
transferred to the Customer Protection Fund.




                                                                                      16 | C F T C
Management’s     Financial     Other           Appendix
Discussion &     Section       Accompanying
Analysis                       Information
Fund Balance with Treasury at September 30, 2012 and 2011 consisted of the following:

                                                         2012                  2011

Appropriated Funds                              $        59,576,063        $   58,014,096
Customer Protection Fund                                 22,904,529            23,755,000
Deposit Fund                                                77,098                  16,621

TOTAL FUND BALANCE WITH TREASURY                $        82,557,690        $   81,785,717




C. Status of Fund Balance with Treasury
Status of Fund Balance with Treasury at September 30, 2012 and 2011 consisted of the following:

Appropriated Funds                                              2012                     2011
Unobligated Fund Balance
Available                                            $           6,423,446      $            9,880,057
Unavailable                                                      3,739,607                   3,671,114
Obligated Balance Not Yet Disbursed                             49,413,010              44,462,925
Total Appropriated Funds                                        59,576,063              58,014,096
Customer Protection Fund
Unobligated Fund Balance
Available                                            $          12,558,748      $                   -
Unavailable                                                     10,302,100              23,755,000
Obligated Balance Not Yet Disbursed                                   43,681                        -
Total Customer Protection Fund                                  22,904,529              23,755,000
Deposit Fund                                                          77,098                   16,621
TOTAL FUND BALANCE WITH TREASURY                     $          82,557,690      $       81,785,717


NOTE 3 Investments, Net

In fiscal year 2012, the CFTC began investing amounts deposited in the Customer Protection
Funds in overnight short-term Treasury securities. Treasury overnight certificates of indebtedness
are issued with a stated rate of interest to be applied to their par amount, mature on the business
day immediately following their issue date, are redeemed at their par amount at maturity, and
have interest payable at maturity.

The Commission may invest in other short-term or long-term Treasury securities at management’s
discretion.

The overnight certificates are Treasury securities whose interest rates or prices are determined
based on the interest rates or prices of Treasury-related financial instruments issued or trading in
the market, rather than on the interest rates or prices of outstanding marketable Treasury
securities.




                                                                                                         17 | C F T C
Management’s         Financial        Other          Appendix
Discussion &         Section          Accompanying
Analysis                              Information
                                                                                          FY 2012 Agency Financial Report
On September 30, 2012, the Commission’s investments totaled $77,135,901 with interest earned of
$12,918.

Note 4           Accounts Receivable

Accounts receivable consist of amounts owed the CFTC by other Federal agencies and the public.
Accounts receivable are valued at their net collectable values. Non-custodial accounts receivable
are primarily for overpayments of expenses to other agencies, or vendors, and repayment of
employee benefits. Historical experience has indicated that most of the non-custodial receivables
are collectible and that there are no material uncollectible amounts.

Custodial receivables (non-entity assets) are those for which fines and penalties have been
assessed and levied against businesses or individuals for violations of the Commodity Exchange
Act (CEA) or Commission regulations. Violators may be subject to a variety of sanctions including
fines, injunctive orders, bars or suspensions, rescissions of illegal contracts, disgorgements, and
restitutions to customers.

Historical experience has indicated that a high percentage of custodial receivables prove
uncollectible. The Commission considers all custodial receivables to be 100% uncollectible unless
deemed otherwise. An allowance for uncollectible accounts has been established and included in
accounts receivable on the balance sheets. The allowance is based on past experience in the
collection of accounts receivable and analysis of outstanding balances. Accounts are re-estimated
quarterly based on account reviews and the agency determination that changes to the net
realizable value are needed.

Accounts receivable, as of September 30, 2012 and 2011, consisted of the following:

                                                                                2012                 2011
Custodial Receivables, Net:
    Civil Monetary Penalty Interest                                         $         700,973    $         776,139
    Civil Monetary Penalties, Fines, and Administrative Fees                      557,751,289          463,508,290
    Less: Allowance for Loss on Interest                                             (700,957)            (776,121)
    Less: Allowance for Loss on Penalties, Fines, and Administrative Fees        (555,301,289)        (462,710,547)
    Registration and Filing Fees                                                    1,690,331            1,776,412
Net Custodial Receivables                                                   $       4,140,347    $       2,574,173
    Other Accounts Receivable                                                          20,976               59,226
    TOTAL ACCOUNTS RECEIVABLE, NET                                          $      4,161,323     $      2,633,399



Note 5 General Property, Plant and Equipment, Net

Equipment and information technology (IT) assets are capitalized annually if they have useful lives
of at least two years and an individual value of $25,000 or more. Bulk or aggregate purchases are
capitalized when the individual useful lives are at least two years and a value of $25,000 or more.
Depreciation for equipment and software is computed on a straight-line basis using a 5-year life.
Leasehold improvements are amortized over the remaining life of the lease. Property, Plant and
Equipment as of September 30, 2012 and 2011 consisted of the following:
                                                                                                            18 | C F T C
Management’s            Financial            Other                   Appendix
Discussion &            Section              Accompanying
Analysis                                     Information
                                                                     2012

                                                                                             Accumulated
                                                                                             Amortization/
  Major Class                Service Life and Method                        Cost             Depreciation          Net Book Value

  Equipment                  5 Years/Straight Line                   $      29,120,043   $      (12,815,168)   $         16,304,875
  IT Software                5 Years/Straight Line                          16,485,238           (6,938,168)              9,547,070
  Software In Development    Not Applicable                                  2,493,610                    -               2,493,610
  Leasehold Improvements     Remaining Life of Lease/Straight Line          23,641,222           (2,639,648)             21,001,574
  Construction in Progress   Not Applicable                                  4,063,306                    -               4,063,306
                                                                     $      75,803,419   $      (22,392,984)   $         53,410,435




                                                                     2011

                                                                                             Accumulated
                                                                                             Amortization/
  Major Class                Service Life and Method                        Cost             Depreciation          Net Book Value

  Equipment                  5 Years/Straight Line                   $      23,845,759   $       (7,582,852)   $         16,262,907
  IT Software                5 Years/Straight Line                          10,061,707           (4,942,862)              5,118,845
  Software In Development    Not Applicable                                  3,513,454                   -                3,513,454

  Leasehold Improvements     Remaining Life of Lease/Straight Line          15,345,533           (1,427,205)             13,918,328
  Construction in Progress   Not Applicable                                  3,533,361                    -               3,533,361
                                                                     $      56,299,814   $      (13,952,919)   $         42,346,895




                                                                                                                   19 | C F T C
Management’s           Financial              Other                  Appendix
Discussion &           Section                Accompanying
Analysis                                      Information
                                                                         FY 2012 Agency Financial Report
Note 6         Deferred Costs

The Commission receives Tenant Improvement Allowance (TIA) from its landlords. These
allowances are used to cover the costs of building renovations, asset purchases, or rent expenses.
The TIA is initially recorded as deferred costs on the balance sheet and is amortized with the
deferred lease liability over the life of the lease

The Commission received approximately $16.2 million in TIA over the last three fiscal years, of
which approximately $13.3 million was used to fund leasehold improvements, and $1.7 million was
used to cover rental payments. The remaining, unused balance of $1.2 million is reflected as
deferred costs on the balance sheet.

Deferred Costs (TIA)                           2012               2011
Beginning Balance, October 1              $     6,254,873     $    6,303,367
TIA received                                    2,868,320          6,701,194
TIA used                                       (7,888,970)        (6,749,688)
Balance as of End of September 2012       $     1,234,223     $    6,254,873



Note 7         Liabilities not Covered by Budgetary Resources

As of September 30, 2012 and 2011, the following liabilities were not covered by budgetary
resources:

                                                2012              2011

Intragovernmental - FECA Liabilities      $       127,661     $       91,175
Annual Leave                                    8,639,840          8,117,663
Actuarial FECA Liabilities                        636,582            437,337
Custodial Liabilities                           4,140,347          2,574,173
Deposit Fund Liabilities                           77,098             57,127
Deferred Lease Liabilities                     24,808,042         21,974,782
Other                                              19,050            19,649
                                          $    38,448,620     $   33,271,906


Note 8         Retirement Plans and Other Employee Benefits

The CFTC imputes costs and the related financing sources for its share of retirement benefits
accruing to its past and present employees that are in excess of the amount of contributions from
the CFTC and its employees, which are mandated by law. The Office of Personnel Management
(OPM), which administers federal civilian retirement programs, provides the cost information to
the CFTC. The CFTC recognizes the full cost of providing future pension and Other Retirement
Benefits (ORB) for current employees as required by Statement of Federal Financial Accounting
Standards (SFFAS) No. 5, “Accounting for Liabilities of the Federal Government”.

                                                                                          20 | C F T C
Management’s          Financial        Other           Appendix
Discussion &          Section          Accompanying
Analysis                               Information
Full costs include pension and ORB contributions paid out of the CFTC’s appropriations and costs
financed by OPM. The amount financed by OPM is recognized as an imputed financing source.
This amount was $6,478,917 for the period ended September 30, 2012 and $6,589,475 for the
period ended September 30, 2011. Reporting amounts such as plan assets, accumulated plan
benefits, or unfunded liabilities, if any, is the responsibility of OPM.

Liabilities for future pension payments and other future payments for retired employees who
participate in the Federal Employees Health Benefits Program and the Federal Employees Group
Life Insurance Program are reported by OPM rather than CFTC.


Note 9     Actuarial FECA Liabilities

FECA provides income and medical cost protections to covered federal civilian employees injured
on the job, to employees who have incurred work-related occupational diseases and to
beneficiaries of employees whose deaths are attributable to job-related injuries or occupational
diseases. The FECA program is administered by the U.S. Department of Labor (DOL), which pays
valid claims against the CFTC and subsequently seeks reimbursement from the CFTC for these
paid claims. Accrued FECA liabilities represent amounts due to DOL for claims paid on behalf of
the agency. Accrued FECA liabilities at September 30, 2012 and September 30, 2011 were
$127,661 and $91,175, respectively.

Actuarial FECA liability represents the liability for future workers compensation (FWC) benefits,
which includes the expected liability for death, disability, medical, and miscellaneous cost for
approved cases. The liability is determined using a formula provided by DOL annually as of
September 30th using a method that utilizes historical benefits payment patterns related to a
specific incurred period to predict the ultimate payments related to that period. The projected
annual benefits payments are discounted to present value using OMB’s economic assumptions for
ten-year Treasury notes and bonds. To provide more specifically for effects of inflation on the
liability for FWC benefits, wage inflation factors (Consumer Price Index-Medical) are applied to
the calculation of projected future benefits. These factors are also used to adjust historical
payments so benefits are stated in current-year constant dollars. Actuarial FECA liabilities at
September 30, 2012 and September 30, 2011 were $636,582 and $437,337, respectively.

Note 10        Leases

The CFTC leases office space in publicly owned buildings for its locations in Washington D.C.,
Chicago, New York, and Kansas City. The lease contracts for publicly owned buildings are
operating leases. The CFTC has no real property. Future estimated minimum lease payments are
not accrued as liabilities and are expensed on a straight-line basis.

As of September 30, 2012, future estimated minimum lease payments through FY 2025 are as
follows:


                                                                                   21 | C F T C
Management’s    Financial     Other          Appendix
Discussion &    Section       Accompanying
Analysis                      Information
                                                                                                    FY 2012 Agency Financial Report
Fiscal Year
2013                                                                                            $       17,781,576
2014                                                                                                    18,110,766
2015                                                                                                    18,254,669
2016                                                                                                    19,017,114
2017                                                                                                    19,411,711
2018 and thereafter                                                                                     155,776,015
Total Future Minimum Lease Payments                                                             $       248,351,850

Add: Amount representing estimated executory costs (taxes, maintenance, and insurance)                  37,355,082
TOTAL MINIMUM LEASE PAYMENTS, INCLUDING ESTIMATED EXECUTORY COSTS                               $       285,706,932


Lease expense is recognized on a straight-line basis because lease payment amounts vary, and in
some cases, CFTC receives periods of up-front free rent, or incentive contributions (TIA) paid by
the landlord. As of September 30, 2012, the Commission had received $16,199,394 in incentive
awards for the renovation of space in Washington D.C., Chicago, New York and Kansas City. A
deferred lease liability representing expense amounts in excess of payments to date has been
recorded. The deferred lease liabilities at September 30, 2012 and September 30, 2011 were $
24,808,042 and $$21,974,782 respectively.

Note 11               Contingent Liabilities

The CFTC records contingent liabilities for legal cases in which payment has been deemed
probable and for which the amount of potential liability has been estimated, including judgments
that have been issued against the agency and which have been appealed. In FY 2012, the
Commission is involved in one civil matter which it believes the chance of an unfavorable outcome
to be probable. The potential loss in this matter is estimated to be $150,000. Additionally, the
Commission discloses legal matters in which an unfavorable outcome is reasonably possible. In
FY 2012, the Commission was involved in three civil matters which it believes the chance of an
unfavorable outcome to be reasonably possible. The potential loss in these cases is estimated to be
$473,648.70.

Note 12               Undelivered Orders

The amount of budgetary resources obligated for undelivered orders as of September 30, 2012 and
2011 consisted of the following:
                                                                                         2012            2011

Undelivered Orders                                                                  $    36,204,581 $   31,133,527



The amount of undelivered orders represents the value of unpaid and paid obligations recorded
during the fiscal year, upward adjustments of obligations that were originally

recorded in a prior fiscal year, and recoveries resulting from downward adjustments of obligations
that were originally recorded in a prior fiscal year.


                                                                                                                      22 | C F T C
Management’s             Financial             Other                   Appendix
Discussion &             Section               Accompanying
Analysis                                       Information
Note 13         Apportionment Categories of Obligations Incurred

Obligations incurred and reported in the Statements of Budgetary Resources in FY 2012 and FY
2011 were Category A and consisted of the following:
                                                      2012              2011

Direct Obligations                         $    214,808,706   $   192,773,375
Reimbursable Obligations                            214,587            77,156

TOTAL OBLIGATIONS INCURRED                 $    215,023,293   $   192,850,531


Note 14 Explanations of Differences between the Statement of Budgetary
Resources and Budget of the United States Government

The CFTC had no material differences between the amounts reported in the Statement of
Budgetary Resources and the actual amounts reported in the Budget of the U.S. Government for
FY 2011. The Budget of the U.S. Government with actual numbers for FY 2012 has not yet been
published. The expected publish date is February 2013. A copy of the Budget can be obtained
from OMB’s Internet site at http://www.whitehouse.gov/omb/.


Note 15         Intra-governmental Cost and Exchange Revenue by Goal

As required by the Government Performance and Results Act of 1993, the agency’s reporting has
been aligned with the following major goals presented in the 2011 – 2015 CFTC Strategic Plan.

    1.   Protect the public and market participants by ensuring market integrity;
         promoting transparency, competition, and fairness; and lowering risk in the
         system

    2. Protect the public and market participants by ensuring the financial integrity of
       derivatives transactions, mitigation of systemic risk, and the fitness and
       soundness of intermediaries and other registrants

    3. Protect the public and market participants through a robust enforcement program

    4. Enhance integrity of US markets by engaging in cross-border cooperation,
       promoting strong international regulatory standards, and encouraging ongoing
       convergence of laws and regulation worldwide

    5.   Promote Commission excellence through executive direction and leadership,
         organizational and individual performance management, and effective
         management of resources

The Net Cost of Operations is derived from transactions between the Commission and public
entities, as well as with other federal agencies. The details of the intra-governmental costs and
revenues, as well as those with the public, are as follows:


                                                                                   23 | C F T C
Management’s        Financial   Other          Appendix
Discussion &        Section     Accompanying
Analysis                        Information
                                                                                              FY 2012 Agency Financial Report
                                                                                    2012               2011
Goal 1: Protect the public and market participants by ensuring market
integrity; promoting transparency, competition, and fairness; and lowering
risk in the system

Intragovernmental Gross Costs                                                  $    10,083,898    $     8,543,266
Less: Earned Rev enue                                                                  (47,728)           (18,783)
Intragovernmental Net Cost of Operations                                       $    10,036,170    $     8,524,482


Gross C osts With the Public                                                   $    49,149,593    $    39,870,011
Less: Earned Rev enue                                                                  (17,179)            (4,106)
Net Cost of Operations With the Public                                         $    49,132,414    $    39,865,905

T otal Net Cost of Operations- Goal 1                                          $    59,168,584    $    48,390,387


Goal 2: Protect the public and market participants by ensuring the financial
integrity of derivatives transactions, mitigation of systemic risk, and the
fitness and soundness of intermediaries and other registrants

Intragov ernmental Gross C osts                                                $     9,313,379    $     7,715,430
Less: Earned Rev enue                                                                  (44,081)           (16,963)
Intragovernmental Net Cost of Operations                                       $     9,269,298    $     7,698,467


Gross C osts With the Public                                                   $    45,394,034    $    36,006,638
Less: Earned Rev enue                                                                  (15,867)            (3,709)
Net Cost of Operations With the Public                                         $    45,378,167    $    36,002,929

T otal Net Cost of Operations- Goal 2                                          $    54,647,465    $    43,701,396


Goal 3: Protect the public and market participants through a robust
enforcement program

Intragov ernmental Gross C osts                                                $    10,391,398    $    10,794,979
Less: Earned Rev enue                                                                  (49,183)           (23,734)
Intragovernmental Net Cost of Operations                                       $    10,342,215    $    10,771,245


Gross C osts With the Public                                                   $    50,648,372    $    50,378,386
Less: Earned Rev enue                                                                  (17,704)            (5,189)
Net Cost of Operations With the Public                                         $    50,630,668    $    50,373,197

T otal Net Cost of Operations- Goal 3                                          $    60,972,883    $    61,144,442

Goal 4: Enhance integrity of US markets by engaging in cross-border
cooperation, promoting strong international regulatory standards, and
encouraging ongoing convergence of laws and regulation worldwide

Intragov ernmental Gross C osts                                                $     1,184,054    $     1,490,105
Less: Earned Rev enue                                                                   (5,604)            (3,276)
Intragovernmental Net Cost of Operations                                       $     1,178,450    $     1,486,828


Gross C osts With the Public                                                   $     5,771,158    $     6,954,071
Less: Earned Rev enue                                                                   (2,017)              (716)
Net Cost of Operations With the Public                                         $     5,769,141    $     6,953,356

T otal Net Cost of Operations- Goal 4                                          $     6,947,591    $     8,440,184

Goal 5: Promote Commission excellence through executive direction and
leadership, organizational and individual performance management, and
effective management of resources

Intragov ernmental Gross C osts                                                $     4,372,163    $     4,569,654
Less: Earned Rev enue                                                                  (20,694)           (10,047)
Intragovernmental Net Cost of Operations                                       $     4,351,469    $     4,559,607


Gross C osts With the Public                                                   $    21,310,216    $    21,325,820
Less: Earned Rev enue                                                                   (7,447)            (2,196)
Net Cost of Operations With the Public                                         $    21,302,769    $    21,323,624

T otal Net Cost of Operations- Goal 5                                          $    25,654,238    $    25,883,231


NET COST OF OPERAT IONS                                                        $   207,390,761    $   187,559,640




Note 16              Reconciliation of Net Obligations and Net Cost of Operations

                                                                                                                     24 | C F T C
Management’s             Financial          Other                  Appendix
Discussion &             Section            Accompanying
Analysis                                    Information
The schedule presented in this footnote reconciles the net obligations with the Net Cost of
Operations. Resources Used to Finance Activities reflects the budgetary resources obligated and
other resources used to finance the activities of the agency. Resources Used to Finance Items Not
Part of the Net Cost of Operations adjusts total resources used to finance the activities of the entity
to account for items that were included in net obligations and other resources but were not part of
the Net Cost of Operations. Components Requiring or Generating Resources in Future Periods
identifies items that are recognized as a component of the net cost of operations for the period but
the budgetary resources (and related obligation) will not be provided (or incurred) until a
subsequent period. Components Not Requiring or Generating Resources includes items
recognized as part of the net cost of operations for the period but will not generate or require the
use of resources. Net Cost of Operations agrees with the Net Cost of Operations as reported on the
Statements of Net Cost.
                                                                                 2012               2011
Resources Used to Finance Activities:
Budgetary Resources Obligated
   Obligations Incurred                                                    $   215,023,293    $   192,850,531

   Less: Spending Authority from Offsetting Collections and Recoveries         (83,253,032)       (25,532,215)
Obligations Net of Offsetting Collections and Recoveries                       131,770,261        167,318,316
   Less:
    Less: Offsetting
          Offsetting Receipts
                     Receipts                                                       (3,210)            (2,219)
   Net
    Net Obligations
        Obligations After
                     After Offsetting
                           Offsetting Receipts
                                      Receipts                                 131,767,051        167,316,097
Other Resources
   Transfers In from Disgorgements, Fines and Penalties                         76,708,620         23,755,000
   Imputed Financing From Costs Absorbed by Others                               6,478,917          6,589,475
   Total Resources Used to Finance Activities                              $   214,954,588    $   197,660,572


Resources Used to Finance Items Not Part of the Net Cost of Operations
   Change in Budgetary Resources Obligated for Goods, Services and
   Benefits Ordered but not yet Provided before Adjustments                $    (5,112,842)   $    (3,560,305)
   Offsetting Receipts                                                               3,210              2,219
   Resources that Fund the Acquisition of Fixed Assets                         (12,963,942)       (16,997,172)
Total Resources Used to Finance Items Not Part of the Net Cost Of          $   (18,073,574)   $   (20,555,258)

Components of the Net Cost of Operations that will not Require or
  Increase in Unfunded Liabilities                                         $      757,908     $      765,005

Total Components of Net Cost of Operations that will Require or Generate
Resources in Future Periods                                                $      757,908     $      765,005
Components Not Requiring or Generating Resources:
   Depreciation and Amortization                                           $     8,588,607    $     9,542,857
   (Gain)/Loss on Disposal                                                               -            160,131
   Other                                                                         1,163,232            (13,667)
Total Components of Net Cost of Operations that will Not Require or
Generate Resources                                                         $     9,751,839    $     9,689,321
Total Components of Net Cost of Operations that will Not Require or
Generate Resources in the Current Year                                     $    10,509,747    $    10,454,326
Net Cost of Operations                                                     $   207,390,761    $   187,559,640




                                                                                                           25 | C F T C
Management’s         Financial          Other               Appendix
Discussion &         Section            Accompanying
Analysis                                Information
                                                                     FY 2012 Agency Financial Report


Note 17 Earmarked Funds

Earmarked funds arise from disgorgement and penalty collections and are transferred to the
Customer Protection Fund (CPF), established by the Dodd-Frank Act. The collections are
transferred from the custodial receipt account if they are found to be eligible before the end of each
fiscal year. In cases where the collection has been returned to the Treasury Department, the
Commission can recover the funds directly from Treasury. The collections will fund the
Commission’s whistleblower awards program and customer education initiatives.

The Dodd-Frank Act provides that whistleblower awards shall be paid under regulations
prescribed by the Commission. An important prerequisite to implementation of the whistleblower
awards program is the issuance of rules and regulations describing its scope and procedures. The
Commission issued final rules implementing the Act on August 25, 2011. These rules became
effective on October 24, 2011. The Commission established the Whistleblower Office in FY 2012.

During FY 2012, $76.7 million of eligible collections were transferred into the Customer Protection
Fund. The Fund’s balance or net position at September 30, 2012 and September 30, 2011 were
$99.9 million and $23.7 million, respectively.




                                                                                       26 | C F T C
Management’s     Financial     Other            Appendix
Discussion &     Section       Accompanying
Analysis                       Information
                                                     27 | C F T C
Management’s   Financial   Other          Appendix
Discussion &   Section     Accompanying
Analysis                   Information
